CERTIFICATE OF WORD COUNT
No. 20-684
Benjamin Tagger,
Petitioner,
v.
Strauss Group Ltd
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Benjamin Tagger
Petition for Rehearing contains 2999 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

(MMst
Chan Xekhar

February 5, 2021

SCP Tracking: Tagger-2928 West 5th Street-Cover Tan

